No. 19-701
In the

Supreme Court of the United States

LLOYD N. JOHNSON,
Petitioner,
v.
KAREN RIMMER, et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Seventh Circuit

REPLY BRIEF

Robert E. Barnes
Counsel of Record
Barnes Law, LLP
601 South Figueroa Street, Suite 4050
Los Angeles, California 90017
(213) 330-3341
robertbarnes@barneslawllp.com
Counsel for Petitioner

294648

A
(800) 274-3321 • (800) 359-6859

1
REPLY
I.

Respondents Concede The Seventh Circuit
Standard Deviated from This Court’s Standard for
the Protection of the Mentally Ill in State Custody

Respondents admit the Seventh Circuit reduced the
professional judgment standard for the care of the mentally
ill to a “would the worst doctor in America possibly do it”
standard by equating it to the standard for the criminally
convicted. (Respondents’ Brief at 8). That was precisely
what this Court rejected in Youngberg v. Romero, 457
U.S. 307, 321-322 (1982), and where the Circuits also
disagree. Involuntarily committed persons are entitled to
more considerate treatment and conditions of confinement
than criminals. Id. By adopting the “no minimally
competent” professional standard, the Seventh Circuit
has all but eliminated this important distinction, treating
involuntarily admitted, mentally ill individuals to the same
lower standard that sentenced criminals must overcome
regarding their §1983 claims. Respondents admit those
“who have been involuntarily committed are entitled more
considerate treatment” (Respondents’ Brief at 6). By this
statement, Respondents admit this Court’s precedents
that preclude the lowest-possible-care standard for the
mentally ill was ignored by the Seventh Circuit. Worse
yet, Respondents attempt to harmonize this standard with
U.S. Supreme Court precedent. The quintessential tail
wagging the dog argument. Summary judgment should
never be granted under these circumstances on smoke
and mirrors arguments where the moving party received
all reasonable inferences in its favor.

2
The Seventh Circuit’s decision in this matter
represents a significant departure from other circuits and
the true intention of Youngberg. The Seventh Circuit will
further entrench itself in this maligned interpretation
of the Youngberg standard unless this circuit split is
reconciled. The Seventh Circuit and the Respondents have
thus far successfully eviscerated this Court’s precedent
and the mentally ill’s constitutional protections at every
level. Is there no possible justice in this Court of last
resort?
ii. Respondent Reveals the Scope of the Circuit Split
on Jury Power in Civil Rights Cases Where Facts
Show Two Possible Suspects
There is a clear circuit split regarding whether a
jury can determine culpability amongst several different
suspects. The Ninth circuit held, “while no evidence
existed to show that any of the defendants personally
participated in the assault, the very presence of the
officers at the scene may constitute sufficient evidence
for a jury to infer that the officers participated in an
illegal beating that was show to have occurred.” Segal v.
Los Angeles Cty., 852 F.2d 1290 (9th Cir. 1988); and see
Rutherford v. City of Berkely, 780 F.2d 1444, 1448 (9th
Cir. 1986).
The Respondents attempt to refute this clear split
between circuits by relying on Jones v. Williams, which
they argue constrains Rutherford and realigns the
conflict between circuits. 297 F.3d 930 (9th Cir. 2002).
While asserting Jones is the controlling authority, the
Respondents speciously omit the fact that Mr. Johnson’s
case was decided at summary judgement. When applied

3
to decisions of summary judgement, reliance on Jones has
been rejected by Ninth Circuit courts. Antoine v. Cty. of
Sacramento, 2007 U.S. Dist. LEXIS 87206 (E.D. Cal.
Nov. 26, 2007). The Antione court astutely distinguishes
the factual differences between the circumstances and
procedural history of Jones with those of claims facing
summary judgment. Id. at *29-31. Respondents here show
no constraint in citing inapplicable law, twisting it to suit
their unscrupulous ends.
Jones dealt with an impermissible jury instruction
that would have invited the jury to find that all of the
defendant officers were liable for merely being present at
an alleged unreasonable search of plaintiff’s home. Jones,
297 F.3d at 934-35. Because the plaintiff in Jones had no
idea which of the officers had destroyed the personal items
inside her home, she sought group liability. Id. However,
the court reasoned that due to the lack of evidence that
the officers “who simply remained outside” were integral
participants in the unlawful conduct, an instruction
to the contrary would have been impermissible. Id. at
939. Significantly, while the Ninth Circuit affirmed the
district court’s refusal to give the instruction, the court
nonetheless approved the initial submission of the case
to the jury to allow it to hear each party’s testimony and
to draw all permissible inferences about the liability of
the individual officers. See Id. at 936 (“The permissible
inferences in [plaintiff’s] proposed instruction were
adequately covered by the fact that the court submitted
the case to the jury.”).
In contrast to Jones, the decision appealed here is on
a motion for summary judgment, not an attempt to submit
an overarching jury instruction. On summary judgment,

4
the court must view the evidence most favorably to the
party against whom the motion is made and, without
weighing the credibility of witnesses, the court must also
give that party the benefit of all reasonable inferences
from the evidence. McCollum v. Smith, 339 F.2d 348, 349
(9th Cir. 1964). If conflicting inferences may be drawn
from the facts, the case must go to the jury. Neely v. St.
Paul Fire and Marine Ins. Co., 584 F.2d 341, 345 (9th
Cir. 1978).
Like in Antoine, Mr. Johnson is unable to identify
precisely which nurse provided him with the scissors.
However, as this decision was made at the summary
judgement stage, Mr. Johnson was entitled to all reasonable
inferences from the evidence. The conflicting inferences
that either Nurse George or a different nurse left the
scissors is one that must be presented to a jury under the
Ninth and Tenth Circuits. Respondents’ argument only
further establishes that the Johnson decision represents
a substantial split by failing to allow these necessary
conflicting inferences to be heard by a jury. Following
the Seventh Circuit’s reasoning, an alternate perpetrator
theory is no longer just a defense at trial but a bullet proof
strategy to prevent §1987 claims from ever reaching a jury
in the first place. Certiorari is warranted to address this
split between the circuits.

5
CONCLUSION
The Respondent resorts to disputing the facts and
arguing the record in a summary judgment case where all
facts and inferences must favor the non-movant Petitioner.
There is a reason the Respondent did so: the decision below
created clear conflicts with this Court’s precedents, fellow
Circuit decisions, and the public policy guiding and governing
this area of law. This seventh Circuit Standard cannot be
Constitutionally adequate custodial care for the mentally ill
in state custody, or the mentally ill in state custody have no
remedial civil rights in state custody in America.
For the reasons stated herein this Court should grant
certiorari.
Respectfully submitted,
Robert E. Barnes
Counsel of Record
Barnes Law, LLP
601 South Figueroa Street, Suite 4050
Los Angeles, California 90017
(213) 330-3341
robertbarnes@barneslawllp.com
Counsel for Petitioner

